                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00918-204


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

 Grand Junction VA Medical Center 

     Grand Junction, Colorado 





July 16, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                          CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO



                                             Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  AUD ........................................................................................................................     3

  MM ..........................................................................................................................    5

  DWHP Proficiency ..................................................................................................              6


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            7

  B. PACT Compass Metrics ....................................................................................                     9

  C. VISN Director Comments ..................................................................................                    13

  D. Facility Director Comments ...............................................................................                   14

  E. OIG Contact and Staff Acknowledgments .........................................................                              17

  F. Report Distribution .............................................................................................            18

  G. Endnotes ...........................................................................................................         19





VA OIG Office of Healthcare Inspections
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted electronic health record reviews during the week of
April 28, 2014, for the CBOCs and PCCs under the oversight of the Grand Junction
VA Medical Center and Veterans Integrated Service Network 19.

Review Results: We conducted three focused reviews and had no findings for the
Designated Women’s Health Provider Proficiency review.  However, we made
recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Registered Nurse Care Managers receive motivational interviewing training within
     12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Provide written medication information that includes the fluoroquinolone.

	   Document the evaluation of patient’s level of understanding for the medication
     education.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 13–16, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       i
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO



                 Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality. In general, our objectives are to:

   	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
        care of patients with AUD.

   	   Determine compliance with requirements for the clinical oversight and patient
        education of fluoroquinolones for outpatients.

   	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality, we
reviewed clinical and administrative records and discussed processes and validated
findings with managers and employees. The review covered the following three
activities:

   	   AUD

   	   MM

   	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
Details of the targeted study populations for the AUD, MM, and DWHP Proficiency
focused reviews are noted in Table 1.




VA OIG Office of Healthcare Inspections                                                       1
                       CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score1 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




1
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                             CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO



                          Results and Recommendations 

AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.1

We reviewed relevant documents. We also reviewed 36 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 2. AUD

NM                     Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 5 of 10 RN Care Managers did
       received motivational interviewing training        not receive motivational interviewing training
       within 12 months of appointment to PACT.           within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    3
                             CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO


Recommendation

1. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing training within 12 months of appointment to Patient Aligned
Care Teams.




VA OIG Office of Healthcare Inspections                                                                4
                             CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 11 (28 percent) of 40 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 29
       medications was provided at the end of the        (73 percent) of 40 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 24 (60 percent) of 40 patients.
       education provided.
       The facility complied with local policy.

Recommendations

2. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

3. We recommended that staff consistently provide written medication information that includes
the fluoroquinolone.

4. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                      5
                             CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.3

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 4. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                6
                                                                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                                                                    Appendix A


                                                                       CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.2
The table below provides information relative to each of the CBOCs.

                                                                                          Uniques3                                  Encounters3

                                    Station                   CBOC
        Location          State                Locality4                    MH6        PC7       Other8       All       MH6         PC7      Other8       All
                                       #                       Size5
    Montrose              CO       575GA        Rural      Mid-Size           121      1,510      1,025      1,822        251      3,872      3,659      7,782




2
  Includes all CBOCs in operation before March 31, 2013. 

3
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

4
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

5
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

6
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

7
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

8
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         7
                          CBOC and PCC Reviews Grand Junction VA Medical Center, Grand Junction, CO


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.9

                                   Specialty Care                                              Tele-Health
          CBOC                                                Ancillary Services11
                                     Services10                                                Services12
    Montrose                         Podiatry                     Audiology                Tele Primary Care
                                                                   Nutrition
                                                              MOVE! Program13
                                                               Diabetic Retinal
                                                                  Screening
 




9
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

10
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

11
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

12
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

13 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           8
                                                                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                                                                    Appendix B


                                                           PACT Compass Metrics




                                                                                                                                                                      
Data Definition.4 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment or
one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the division
level.

VA OIG Office of Healthcare Inspections                                                                                                                        9
                                                                   CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.




VA OIG Office of Healthcare Inspections                                                                                                                    10
                                                                  CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                  CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.


VA OIG Office of Healthcare Inspections                                                                                                                   12
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       June 18, 2014

          From:        Director, VA Rocky Mountain Network (10N19)

       Subject:        CBOC and PCC Reviews of the Grand Junction VA
                       Medical Center, Grand Junction, CO

             To:       Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. 	 I concur with the attached facility response to this draft report from
          the OIG following their visit during the week of April 28, 2014.

       2. 	 If you have additional questions or concerns, please contact Ms.
          Susan Curtis, Executive Officer to the VISN 1 9 Chief Medical Officer
          VISN, at (303) 639-6995.




VA OIG Office of Healthcare Inspections                                                      13
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       June 16, 2014

          From:        Acting Director, Grand Junction VA Medical Center (575/00)

       Subject:        CBOC and PCC Reviews of the Grand Junction VA
                       Medical Center, Grand Junction, CO

             To:       Director, VA Rocky Mountain Network (10N19)

       1. Thank you for the opportunity to submit responses to the proposed
          recommendations for the Grand Junction VA Medical Center, Grand
          Junction, Colorado.

       2. I have reviewed and concur with the findings and recommendations in
          the report of the Office of Inspector General conducted the week of
          April 28, 2014.

       3. Corrective action plans have been established and target completion
          dates have been set for the remaining items as detailed in the attached
          report.

       4. 	 If you have additional questions or need further information, please
            contact Michelle Ernzen, Chief, Quality Management , at
            (970) 242-0731, ext. 2873.




VA OIG Office of Healthcare Inspections                                                      14
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing training within 12 months of
appointment to Patient Aligned Care Teams.

Concur

Target date for completion: Completed

Facility response: All nurses identified as current PACT RNs have received motivational
interviewing and health coaching training. To ensure RN Care Managers and providers
meet the requirement, quarterly Motivational Interviewing classes will be offered. New
RN Care Managers and providers will be scheduled for the next Motivational
Interviewing classes as part of their new staff orientation schedule. Successful and
timely training completion will be monitored by their supervisor and the care line.

Recommendation 2.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: June 30, 2014

Facility response: Pharmacy and Patient Safety will educate all providers on medication
reconciliation expectations and requirements. This education will be documented in the
medicine, surgery, and psychiatry staff meeting minutes along with provider attendance.
Pharmacy will audit 100% of all Fluoroquinolones ordered on a monthly basis for
6 months and report results to the Quality, Safety, and Value Board.

Recommendation 3.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: July 15, 2014




VA OIG Office of Healthcare Inspections                                                      15
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO


Facility response: A Fluoroquinolone handout will be developed and the Education Note
will reference the education provided. Staff will be educated regarding the need and
reasons for completing an education note regarding medications. Pharmacy will
continue to provide the manufacturer’s written information for all Fluoroquinolones
prescriptions filled. The Veteran Health Education Committee will audit 100% of all
Fluoroquinolones ordered on a monthly basis for 6 months and randomly thereafter.
Results will be reported to the Quality, Safety, and Value Board.

Recommendation 4. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: July 15, 2014

Facility response: The Education Note will be utilized to document Fluoroquinolone and
medication education. This will clearly document a verification of learning utilizing either
Ask Me 3 or Teach Back methods. Staff will be educated on the use of the Education
note for documenting Veteran’s level of understanding. The Veteran Health Education
Committee will audit 100% of all Fluoroquinolones ordered on a monthly basis for
6 months and randomly thereafter. Results will be reported to the Quality, Safety, and
Value Board.




VA OIG Office of Healthcare Inspections                                                      16
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Review                  Sandra Khan, RN, BSN, Team Leader
Contributors            Josephine Biley Andrion, RN, MHA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Deborah Howard, RN, MSN
                        Derrick Hudson
                        Jeff Joppie, BS
                        Glen Pickens, RN, MHSM
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      17
                    CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Rocky Mountain Network (10N19)
Director, Grand Junction VA Medical Center (575/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Michael Bennet, Michael Enzi, Orrin Hatch, Michael Lee,
 Mark Udall
U.S. House of Representatives: Jason Chaffetz, Cynthia Lummis, Scott Tipton


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      18
                     CBOC and PCC Reviews at Grand Junction VA Medical Center, Grand Junction, CO
                                                                                     Appendix G

                                              Endnotes

1
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
2
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
3
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
4
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    19
